Semiannual Report to Congress




        Pension Benefit Guaranty Corporation
        Office of Inspector General
        October 1, 2013 to March 31, 2014
SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   iii
iv   PBGC OFFICE OF INSPECTOR GENERAL

    




    





    




    




    





    




    

        SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   1
2   PBGC OFFICE OF INSPECTOR GENERAL








    SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   3
4   PBGC OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   5
      



      



      

      



      



      




6   PBGC OFFICE OF INSPECTOR GENERAL
                Themes of Open Recommendations as of 03/31/2014

           0%           6%                              Information Technology
                   9%
                                                        Financial Management
                                     48%
          21%                                           Benefits and Plan Valuation
                                                        Needs to establish or Improve Controls

                 9%                                     Procurement Contract and Oversight
                        6%
                                                        Quality Control
                                                        Other




Material Weakness            Associated              RCF’s                  RCF’s to be
                             Recommenda-             Submitted              Submitted
                             tions

1 – BAPD                              10                  1                           0
2 – Entity-Wide Security              12                  0                           1
3 – Access Controls &                 25                 11                           2
Configuration Manage-
ment
                Total:                47                 12                           3




            SEMIANNUAL REPORT TO CONGRESS           PERIOD ENDING 10/01/13 THROUGH 3/31/14       7
       
       
       
       
       




8   PBGC OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   9
10   PBGC OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS   PERIODS ENDING 10/01/13 THROUGH 3/31/14   11
     


     




12   PBGC OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS   PERIODS ENDING 10/01/13 THROUGH 3/31/14   13
       

       
       

       




14   PBGC OFFICE OF INSPECTOR GENERAL










    SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   15
        




        




16   PBGC OFFICE OF INSPECTOR GENERAL










    SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   17
     



     


     


     




18       PBGC OFFICE OF INSPECTOR GENERAL






    SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   19
     




     




20   PBGC OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   21








22   PBGC OFFICE OF INSPECTOR GENERAL











    SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   23
24   PBGC OFFICE OF INSPECTOR GENERAL

















    SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   25
     




     




26       PBGC OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS   PERIOD ENDING 10/01/13 THROUGH 3/31/14   27
28   PBGC OFFICE OF INSPECTOR GENERAL
    Number of Reports                                                               9
    Number of Recommendations                                                       54



    Open Recommendations Beginning of Period                                        172
    Opened This Period                                                               55*
    Closed This Period                                                              64
    Open Recommendations End of Period                                              163
    Reports with Open Recommendations End of Period                                 28



    Pending Beginning of Period                                                     14
    Opened                                                                          2
    Closed                                                                          6
    Pending End of Period                                                           10



    Pending Beginning of Period                                                     23
    Opened                                                                          46
    Closed                                                                          39
    Pending End of Period                                                           30



    Theft of Funds Recovered                                                        0
    Court Ordered Fines, Penalties, and Restitution                                 $1,400
    U.S. Government Property Recovered                                              0
    Recovery of Funds                                                               $213,609
.



    Arrests                                                                         0
    Indictments                                                                     0
    Convictions                                                                     0




    For Prosecution:
       Department of Justice                                                        4
    Various States’ Attorney Offices                                                1
           Declined                                                                 4



              SEMIANNUAL REPORT TO CONGRESS           PERIOD ENDING 10/01/13 THROUGH 3/31/14   29
30   PBGC OFFICE OF INSPECTOR GENERAL
           OF REPORTS ISSUED
For the Six-Month Period Ending March 31, 2014

                                              Number       Questioned         Unsupported       Funds Put to
                                              Of Reports   Costs              Costs             Better use

A.   For which no management decision         1            $0                 $0                $0
     had been made by the commence-
     ment of the reporting period.



B. Which were issued during the reporting     9
   period.


                                                           $0                 $0                $0

     PBGC Lawfully Terminated the Nation-
     al Steel Plans, but Accepted Poor
     Quality Work from Contractors
     (10/23/2013)

                                                           $0                 $0                $0

     Audit of the Pension Benefit Guaranty
     Corporation’s Fiscal Year 2013 and
     2012 Financial Statements
     (11/15/2013)

                                                           $0                 $0                $0

     Report of Internal Controls Related to
     the Pension Benefit Guaranty Corpo-
     ration’s Fiscal Year 2013 and 2014
     Financial Statements Audit

     (11/15/2013)
                                                           $0                 $0                $0

     Audit of the Pension Benefit Guaranty
     Corporation’s Financial Statement
     Closing Package for Fiscal Year 2013
     and FY 2014 (11/15/2013)
                                                           $0                 $0                $0

     FY 2013 Federal Information Security
     Management Act Submission to the
     Office of Management and Budget
     (11/21/14)

                                                           $0                 $0                $0

     Fiscal Year 2013 Vulnerability Assess-
     ment and Penetration Testing Report
     (1/9/2014)
                                                           $0                 $0                $0

     Fiscal Year 2013 Financial Statement
     Audit Management Letter Report
     (1/31/2014)

                       SEMIANNUAL REPORT TO CONGRESS               PERIOD ENDING 10/01/13 THROUGH 3/31/14    31
RESULTS OF REPORTS ISSUED
For   Six-Month Period Ending March 31, 2014
                                                      Number    Questioned   Unsupported   Funds Put to
                                                      Of Reports Costs       Costs         Better use

                                                                $0           $0            $0


     Increased Oversight, Internal Controls
     and Performance Accountability Needed
     for PBGC’s Monitoring, Enforcing and
     Modifying Negotiated Funding Agree-
     ments (3/21/2014)

                                                                $0           $0            $0

     Fiscal Year 2013 Federal Information
     Security Management Act Final Report
     (3/21/2014)
                                                      10        $0           $0            $0

     Total (Add A. & B.)

                                                      8         $0           $0
 C. For which a management decision was
     made during the reporting period.
                                                                $0           $0
       (i)     dollar value of disallowed costs



                                                                $0           $0
       (ii)    dollar value of costs not disallowed

                                                      1         $0           $0
 D. For which no management decision had
     been made by the end of the reporting
     period.



                                                      0         $0           $0
 E. For which no management decision was
     made within six months of issuance.




32                   PBGC OFFICE OF INSPECTOR GENERAL
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Report Number, Report Title     Number of     Significant Problems    Summary of Signifi-
                                              and Deficiencies        cant Recommenda-
and                             Significant
                                                                      tions
Date Issued                     Recommenda-
                                tions


96-4/23093-2                          1       Integrating Financial   PBGC needs to com-
Audit of the Pension Benefit                  Management Systems      plete the integration of
Guaranty Corporation’s Fiscal                                         its financial manage-
Year 1995 Financial State-                                            ment systems.
ments 03/13/1996
       and
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Control - PBGC’s FY
2007 and 2006 Financial
Statements Audit
11/15/2007

2003-3/23168-2                        1       Entity-Wide Infor-      PBGC needs to com-
Audit of the Pension Benefit                  mation Security Pro-    plete its efforts to fully
Guaranty Corporation’s Fiscal                 gram                    implement and en-
Years 2002 - 2001 Financial                   Planning &              force an effective in-
Statements 01/30/2003                         Management              formation security
       and                                                            program.
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Control - PBGC’s FY
2007 and 2006 Financial
Statements Audit
11/15/2007

2003-10/23177-2                       4       Control weaknesses      PBGC needs to ensure
Review of PBGC’s Premium                      undermine the quality   that its automated
Accounting System                             and integrity of report- system produces accu-
10/10/2003                                    ed premium revenues. rate and verifiable
                                                                      premium accounting
                                                                      data.




        SEMIANNUAL REPORT TO CONGRESS         PERIOD ENDING 10/01/13 THROUGH 3/31/14         33
     PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
     FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED


     Report Number, Report Title      Number of         Significant Problems   Summary of Signifi-
     and                              Significant       and Deficiencies       cant Recommenda-
     Date Issued                      Recommendations                          tions



     2008-1/FA-0034-1                               8   Access Controls        PBGC needs to miti-
     Audit of the Pension Benefit                                              gate the systemic
     Guaranty Corporation’s Fis-                                               issues related to in-
     cal Years 2007 - 2006 Finan-                                              formation access con-
     cial Statements 11/15/2007                                                trols.
             and
     AUD-2008-2/ FA-09-0034-2
     Limited Disclosure Report on
     Internal Control - PBGC’s FY
     2007 and 2006 Financial
     Statements Audit
     11/15/2007


     AUD-2009-01/FA-08-49-1                         4   Entity-Wide Infor-     PBGC needs to com-
     Audit of the Pension Benefit                       mation Security Pro-   plete the design, im-
     Guaranty Corporation’s Fis-                        gram & Planning Man- plementation and
     cal Years 2008 and 2007                            agement                testing of security
     Financial Statements                                                      controls, implement
     11/13/2008                                                                an effective certifica-
           and                                                                 tion and review pro-
     AUD-2009-02/FA-08-49-2                                                    cess, and correct
     Limited Disclosure Report on                                              identified access con-
     Internal Controls – PBGC’s                                                trol vulnerabilities.
     FY 2008 and 2007 Financial
     Statements 11/13/2008


     AUD-2010-09/IT-09-67                           2   System control weak- PBGC needs to
     PBGC Needs to Improve                              nesses placed PII of   strengthen security
     Controls to Better Protect                         approximately 1 mil-   controls and complete
     Participant                                        lion participants at   a certification and
     Personally Identifiable Infor-                     risk.                  accreditation review
     mation (PII)                                                              of the system housing
     09/16/2010                                                                the PII.




34           PBGC OFFICE OF INSPECTOR GENERAL
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Report Number, Report      Number of              Significant Problems     Summary of Signifi-
Title and                  Significant            and Deficiencies         cant Recommenda-
Date Issued                Recommendations                                 tions


AUD-2010-08/IT-09-67                     3        Information technolo-    PBGC should develop a
Authorization to Operate                          gy general support       comprehensive plan to
PBGC Information Sys-                             systems and major        remediate identified
tems                                              applications without     vulnerabilities.
08/18/2010                                        ATOs required by
                                                  OMB.

 EVAL-2012-5/PA-10-72                    8        Systemic errors and      PBGC needs to

 PBGC Processing of                               omissions in audits of   strengthen the post-

 Terminated United Air-                           terminated pension       trusteeship audit pro-

 lines Pension Plans was                          plans                    cess.

 Seriously Deficient
 11/30/2011




This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as
amended.




            SEMIANNUAL REPORT TO CONGRESS           PERIOD ENDING 10/01/13 THROUGH 3/31/14          35
